   November 25, 2002




Acquisition
Contract Actions Awarded
to Small Businesses
(D-2003-029)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
  fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
BPA                   Blanket Purchase Agreement
DSSW                  Defense Supply Service - Washington
FAR                   Federal Acquisition Regulation
FSS                   Federal Supply Schedules
GAO                   General Accounting Office
GSA                   General Services Administration
IG DoD                Inspector General of the Department of Defense
NAICS                 North American Industry Classification System
NASA                  National Aeronautics and Space Administration
SBA                   Small Business Administration
        Office of the Inspector General of the Department of Defense
Report No. D-2003-029                                              November 25, 2002
  (Project No. D2001CF-0133)

               Contract Actions Awarded to Small Businesses

                               Executive Summary

Who Should Read This Report and Why? Contracting officials throughout DoD
should read this report because it addresses the need for being fair to contractors and
obtaining the best value for the Government, including fair and reasonable prices, when
issuing orders under Federal Supply Schedules.

Background. We initiated this audit to determine whether contracting officials
followed established procedures when awarding orders to small businesses using
General Services Administration Federal Supply Schedules and whether contracting
officials used appropriate market research.

We reviewed 124 contract actions awarded at 16 contracting offices during
FYs 2000 and 2001. Each of the actions was valued at more than $0.5 million and
collectively totaled $891.5 million. Seventy-three of these actions, valued at
$254.4 million, were awarded to small businesses using General Services
Administration Federal Supply Schedules. Fifty-one actions, valued at $637.1 million,
were awarded to small businesses either on a sole-source basis or by competition where
only 1 proposal was received.

Results. Contracting officials did not make adequate efforts to use market research,
competition, and the huge buying power of DoD as a basis for obtaining good prices.
Contracting officials did not comply with the Federal Acquisition Regulation and the
General Services Administration Special Ordering Procedures when awarding 71 of
73 orders using Federal Supply Schedules. The value of the 71 orders was
$249.3 million. Each of the 71 orders had 1 or more of the following problems:

        •   inadequate or no review of contractor pricelists (15 of 17 orders for
            products, or 88 percent; 36 of 44 orders for services, or 82 percent; and
            9 of 12 orders for a combination of products and services, or 75 percent);

        •   no request for discounts (45 of 64 orders, or 70 percent);

        •   inappropriate use of sole-source orders instead of seeking multiple sources
            (31 of 73 orders, or 42 percent); and

        •   inadequate review of labor hours, labor mixes, and labor rates (49 of
            56 orders, or 88 percent).
As a result, there is no assurance that the Government paid fair and reasonable prices or
obtained best value for the 71 Federal Supply Schedule orders. More specific guidance
from the Under Secretary of Defense for Acquisition, Technology, and Logistics would
increase the likelihood of DoD obtaining good pricing from orders issued using Federal
Supply Schedules. See finding A for details of the results and recommendations.

Contracting officials also did not effectively use market research techniques to obtain
competition and better pricing for contracts awarded to small businesses in which
Federal Supply Schedules were not used. For 17 of 51 contract actions reviewed,
contracting officials made sole-source awards to small businesses without convincing
sole-source justifications. The value of the 17 orders was $131.6 million. Contracting
officials also awarded 6 of the 51 contract actions on a competitive basis knowing that
only 1 offeror was likely to submit a proposal. The value of the six contract actions
was $219.6 million. As a result, other eligible small businesses were not considered.
Inadequate price reasonableness determinations were also made, and problems related
to the use of the Truth in Negotiations Act continue to exist. See finding B for the
details of the results and recommendations.

Four prior Inspector General of the Department of Defense audits identified price
reasonableness and Truth in Negotiations Act problems similar to the problems in this
report. Accordingly, DoD needs to take an aggressive role in monitoring its
contracting officials.

Management Comments and Audit Response. The Director, Defense Procurement
generally concurred with 12 of the recommendations. The Director deferred taking
action on clarifying guidance related to orders for products and services placed on
Federal Supply Schedules, including the General Services Administration special
ordering procedures in the Federal Acquisition Regulation pending the outcome of the
contentious Federal Acquisition Regulation Case 99-603. The Director disagreed with
developing a trend analysis to measure the progress made in obtaining competition and
multiple sources through the market research process claiming that there was no
database available that included a metric to measure the increase in competition solely
attributable to market research. A discussion of management comments is in the
Findings section of the report and the complete text is in the Management Comments
section.

We believe that the Director needs to take aggressive action to clarify guidance on
orders from the Federal Supply Service since the Federal Acquisition Regulation case
has been ongoing for over 3 years and its outcome is doubtful. We did not intend that
new databases or metrics be developed to measure the increase in competition solely
attributable to market research. The intent of our recommendation was for DoD to
determine whether DoD is increasing its use of market research when awarding
contracts. We request the Director, Defense Procurement provide comments in
response to the final report by January 15, 2003.




                                           ii
Table of Contents
Executive Summary                                                             i
Background                                                                    1

Objectives                                                                    3

Findings
     A. Adequacy of Best Value and Price Reasonableness Decisions for
         Orders Using Federal Supply Schedules                                4
     B. Adequacy of Market Research Efforts for Contract Actions Awarded
         to Small Businesses                                                 20

Appendixes
     A. Scope and Methodology                                                28
         Management Control Program Review                                   28
     B. Prior Coverage                                                       30
     C. Federal Supply Schedule Orders                                       31
     D. Non-Federal Supply Schedule Contract Actions                         38
     E. Problems Related To Orders Issued Using Federal Supply Schedules     43
     F. Report Distribution                                                  50

Management Comments
     Under Secretary of Defense for Acquisition, Technology, and Logistics
       Comments                                                              52
Background
    We performed this audit as a result of issues identified in prior Inspector
    General of the Department of Defense (IG DoD) audits. See Appendix B for
    details. We reviewed orders awarded to small businesses using Federal Supply
    Schedules (FSS). Eleven FSS orders were issued using DoD blanket purchase
    agreements (BPAs) that DoD Components had entered into with FSS contractors
    in accordance with the Federal Acquisition Regulation (FAR) Part 8, “Required
    Sources of Supplies and Services.” See Appendix C for FSS orders issued
    using BPAs. We also reviewed non-FSS contract actions awarded to small
    businesses in accordance with FAR Part 19, “Small Business Programs.”

    The General Services Administration (GSA) FSS are usually large contracts
    through which Federal customers can acquire more than 4 million products and
    services directly from more than 8,000 commercial suppliers. Under the FSS,
    GSA enters into contracts with commercial firms, for a fee, to provide supplies
    and services at stated prices for given periods of time. Orders are placed
    directly with the schedule contractor, and deliveries are made directly to the
    customer. The FSS offer a vast array of brand name products, from office
    supplies and copier paper to office furniture and computers, and services
    ranging from accounting and graphic design to landscaping.

    Use of FSS by Government agencies, including DoD, has increased significantly
    during the last several years for a variety of reasons, including ease of use and
    reductions in acquisition time. DoD is the largest user of the FSS. Figures
    from the Federal Procurement Data System show for FY 2000 that DoD
    accounted for 55 percent ($5.6 billion) of dollar purchases from the GSA FSS.
    To assist contracting officers with GSA purchases, GSA has an online ordering
    system. This system, GSA Advantage!, is available to any Internet user
    24 hours a day, 7 days a week, and contains more than 1 million products and
    services.

    GSA charges a 1 percent fee for using FSS contracts. This fee is passed on to
    the DoD customer through the contractor’s price. Using the 1 percent fee as the
    basis, and information extracted from the Federal Procurement Data System,
    DoD incurred, at a minimum, $56 million in fees in FY 2000 for using the GSA
    FSS.




                                        1
                                               .


            6

            5

           4
 Dollar
 Amount 3
(Billions)
           2

            1

            0
                 1996        1997        1998        1999       2000

 The following figure shows the value of DoD orders under the FSS from
 FY 1996 through FY 2000.

 DoD Expenditures Under Federal Supply Schedules


 Recent Problems Identified in the Use of Federal Supply Schedules. From
 April 1999 to September 2001, the IG DoD issued four reports that state that
 DoD was not adequately competing procurements or obtaining fair and
 reasonable prices. This report addresses the same type of problems and shows
 that the lack of competition and no assurance of fair and reasonable prices are
 continuing problems.

 Inspector General, GSA report, “MAS [Multiple Award Schedule] Pricing
 Practices: Is FSS Observing Regulatory Provisions Regarding Pricing?,”
 August 24, 2001, stated that the Federal Supply Service was not consistently
 negotiating most-favored customer pricing and many multiple award schedule
 contract extensions were accomplished without adequate price analysis. The
 Inspector General, GSA was concerned that post-award audits had been
 discontinued, and the number of pre-award audits it was performing at the
 request of contracting officers had decreased significantly. The report identified
 that although 211 pre-award audits had been performed in FY 1990, only
 94 pre-award audits were performed in FY 1996 and 23 pre-award audits
 performed in FY 2000. Instead of GSA pre-award audit coverage increasing in
 proportion with the increased number of FSS contracts being awarded, pre-
 award audit coverage was decreasing.



                                     2
     Therefore, prudent use of FSS is required, especially for high dollar orders. In
     our opinion, DoD, as the largest user of FSS should be in a position to demand
     more pre-award audits to verify the continued validity and competitiveness of
     the FSS prices.

     A General Accounting Office (GAO) report, GAO-01-25, “Contract
     Management: Not Following Procedures Undermines Best Pricing Under
     GSA’s Schedule,” November 28, 2000, stated that DoD contracting officers did
     not follow GSA established procedures intended to ensure fair and reasonable
     prices when awarding FSS orders for information technology services. The
     report noted that the FAR does not make distinctions between services and
     products and that the regulation did not inform contracting officers that GSA
     Special Ordering Procedures for services even exist. GAO recommended that
     the Administrator, Office of Federal Procurement Policy, as chair of the Federal
     Acquisition Regulatory Council take steps to revise the FAR to incorporate the
     requirements contained in the ordering procedures for services to obtain
     competitive quotes. Although the Administrator, Office of Federal Procurement
     Policy agreed with the GAO recommendation, the Office of Federal
     Procurement Policy is still in the process of revising the FAR to incorporate the
     requirements contained in the ordering procedures for services to obtain
     competitive quotes. Our audit was broader than the GAO report and found
     additional examples of the same problems identified in the GAO report.

Objectives
     Our objective was to determine whether contracting officials awarded orders to
     small businesses using General Services Administration Federal Supply
     Schedules in accordance with FAR Part 8. Furthermore, we determined
     whether adequate market research was performed for small business contract
     actions awarded on a sole-source basis or competitively when only one proposal
     was received. See Appendix A for a discussion of the audit scope and
     methodology and the review of the management control program.




                                         3
                   A. Adequacy of Best Value and Price
                      Reasonableness Decisions for Orders
                      Using Federal Supply Schedules
                   Contracting officials did not comply with the FAR and GSA Special
                   Ordering Procedures when awarding 71 of 73 FSS orders to small
                   businesses for products and services. The value of the 71 orders was
                   $249.3 million. Each of the 71 orders had 1 or more of the following
                   problems:

                           •    inadequate or no review of contractor pricelists (15 of 17
                                orders for products, or 88 percent;∗ 36 of 44 orders for
                                services, or 82 percent;* and 9 of 12 orders for a combination
                                of products and services, or 75 percent);*

                           •    no request for discounts (45 of 64 orders, or 70 percent);*

                           •    inappropriate use of sole-source orders instead of seeking
                                multiple sources (31 of 73 orders, or 42 percent);* and

                           •    inadequate review of labor hours, labor mixes, and labor rates
                                (49 of 56 orders, or 88 percent).*

                   This occurred because FAR and GSA guidance were confusing, and
                   contracting officials made inaccurate interpretations of the guidance. As
                   a result, there is no assurance that the Government paid fair and
                   reasonable prices for products and services obtained from small
                   businesses using the schedules.

Criteria
          FAR Guidance. FAR 8.404(a), “General,” provides that orders for products
          and services placed against multiple-award schedules are considered to be issued
          using full and open competition and that ordering offices need not seek further
          competition, synopsize the requirement, make a separate determination of fair
          and reasonable pricing, or consider small business programs. It also provides
          that GSA has already determined the prices of items under schedule contracts to
          be fair and reasonable. By placing an order against a schedule using the
          procedures in FAR Part 8, the ordering office has concluded that the order
          represents the best value and results in the lowest overall cost alternative
          considering price, special features, and administrative costs to meet the
          Government’s needs.




∗
    Judgment sample percentage does not generalize to universe.



                                                    4
FAR 8.404(b), “Ordering Procedures for Optional Use Schedules,” provides
more specific guidance depending on the dollar amount of awards.
FAR 8.404(b)(1), “Orders at or Below the Micro-Purchase Threshold,”
provides that orders can be placed with any FSS contractor if the order is at or
less than the micro-purchase threshold, which is currently $2,500.
FAR 8.404(b)(2), “Orders Exceeding the Micro-Purchase Threshold But Not
Exceeding the Maximum Order Threshold,” provides that contracting officials
place orders with the schedule contractor that can provide the supply or service
that represents the best value. Contracting officials should also consider
reasonably available information about the supply or service offered under
multiple-award schedule contracts by using the GSA Advantage! online
shopping service, or by reviewing catalogs or pricelists of at least three schedule
contractors for orders exceeding the micro-purchase threshold but not exceeding
the maximum order threshold. FAR 8.404(b)(3), “Orders Exceeding the
Maximum Order Threshold,” provides that contracting officials review
additional schedule contractors’ catalogs or pricelists or use the GSA
Advantage! online shopping service and generally seek price reductions from
schedule contractors appearing to provide the best value for orders exceeding
the maximum order threshold, which varies by schedule. The maximum order
threshold is the point where it is advantageous for the ordering office to seek a
price reduction. FAR 8.404(b)(4), “Blanket Purchase Agreements,” authorizes
agencies to establish BPAs for recurring requirements using the FSS ordering
procedures.

GSA Special Ordering Procedures. In March 1998, GSA developed special
instructions for ordering services priced at hourly rates under the FSS. In
March 2000, these instructions were updated to become Ordering Procedures
for Services. These procedures provide instructions for issuing FSS orders for
both services that require a statement of work and for services and products that
do not require a statement of work. For FSS orders requiring a statement of
work, contracting officials are required to send a request for competitive quotes
to three FSS contractors for orders valued for more than the micro-purchase
threshold up to the maximum order threshold. Contracting officials are required
to provide a request for competitive quotes to additional contractors for orders
that exceed the maximum order; however, the guidance does not specify how
many additional quotes should be obtained. Contracting officials are also
required to consider the level of effort and mix of labor proposed to perform a
specific task and make a determination that the total firm-fixed price or ceiling
price is fair and reasonable prior to issuing FSS orders for services. GSA also
developed a Multiple Award Schedules Program Owner’s Manual that should be
used by contracting officials to implement the GSA Special Ordering
Procedures.

Contracting officials are required to use the GSA Advantage! online shopping
service or review the pricelists from at least three FSS contractors for orders
that do not have a statement of work when orders exceed the micro-purchase
threshold up to the maximum order threshold. Contracting officials should
review additional price lists or use the GSA Advantage! online shopping service
and seek price reductions from FSS contractors for orders awarded for more
than the maximum order threshold. Although GSA Special Ordering
Procedures take precedence over the procedures in FAR 8.404(b)(2) through
                                     5
    (b)(3), there is no mention of these procedures in FAR Part 8. In addition, the
    Special Ordering Procedures are difficult to locate on the Internet.

    The National Defense Authorization Act for Fiscal Year 2002, Section 803.
    Section 803 places more stringent requirements on contracting officials awarding
    FSS orders. It requires contracting officials to compete FSS orders for
    purchases of services in excess of $100,000 or to justify waivers of this
    requirement.

    The competition for FSS orders will increase the likelihood that competitive
    prices are obtained because contracting officials will be comparing quotes that
    include special pricing arrangements and discounts, as opposed to merely
    reviewing contractor schedules. Contracting officials will also be required to
    perform additional analyses when making determinations of fair and reasonable
    prices.

    The legislation, when incorporated into the procurement regulations, should
    strengthen competitive procedures for purchasing services. However, it does
    not address discounts on high dollar awards for products. Additional guidance
    is needed for the use of sole-source orders since the legislation does not impose
    new procedures for placement of sole-source orders. Prudent contracting should
    result in better prices as quantities rise.

FSS Orders Reviewed
    We reviewed 73 FSS orders to small businesses for products, services, or a
    combination of both, valued at $254.4 million, at 13 DoD contracting offices.
    See Appendix C for a list of orders reviewed. Seventeen of the orders, valued
    at $39 million, were for products; 44 orders, valued at $103.3 million, were for
    services; and 12 orders, valued at $112 million, were for a combination of both
    products and services. The value of each order exceeded $0.5 million.




                                        6
     The following table provides a breakdown of FSS orders reviewed by DoD
     Component.

                    Table 1. Federal Supply Schedule Orders Reviewed

                   DoD Component                Offices   FSS Orders     Value
                                                Visited    Reviewed    (Millions)

       Army                                       5          34         $ 69.0

       Navy                                       3          11           54.3

       Air Force                                  3          18           79.4

       Defense Logistics Agency                   1           5           13.1

       Defense Information Systems Agency         1           5           38.6

        Total                                     13         73         $254.4



Issues Identified
     Contracting officials did not follow procedures in FAR Part 8 for obtaining best
     value when awarding orders for products and GSA Special Ordering Procedures
     for obtaining price reasonableness when awarding orders for services. FAR
     Part 8 requires that contracting officers review contractor catalogs or pricelists
     or use the GSA Advantage! online shopping service when buying products.
     GSA Special Ordering Procedures require contracting officers to request
     contractor quotes when buying services. In addition, DoD did not maximize its
     position as the largest user of FSS to obtain favorable pricing (discounts) and in
     all likelihood, paid prices similar to other Federal agencies that made lower
     volume purchases. As a result, there was no assurance that DoD obtained best
     value or fair and reasonable prices. Table 2 summarizes the problems identified
     during the audit, and Appendix E shows the details relating to each contract.




                                            7
Table 2. Summary of Problems Related to Orders Awarded to Small
Businesses Using Federal Supply Schedules


              Problem Areas                    Number of           Percent     Value of
                                           Occurrences/Univers                Number of
                                                    e                         Occurrences

  Inadequate or No Review of                      60/73             82∗      $206 million
  Contractor Pricelists

  No Request for Discounts                        45/64             70*      $164 million

  Inappropriate Use of Sole-Source                31/73             42*      $98.9 million
  Orders Instead of Seeking Multiple
  Sources

  Inadequate Review of Labor Hours,               49/56             88*      $152.5 million
  Labor Mixes, Labor Rates

  ∗
      Judgment sample percentage does not generalize to universe

Inadequate or No Review of Contractor Pricelists and No Request for
Quotes. Contracting officials could not demonstrate that they had performed
the required reviews of contractor pricelists/catalogs, used the GSA Advantage!
online shopping service, and requested discounts in accordance with FAR Part 8
and GSA Special Ordering Procedures when buying products. Contracting
officials also could not show that they had requested quotes from multiple
sources and requested discounts when buying services in accordance with GSA
Special Ordering Procedures. These problems were related to orders for
products, orders for services, and orders for a combination of products and
services.

FSS Orders for Products. Seventeen of 73 orders reviewed were for products
and were valued at $39 million. Sixteen of the 17 orders were valued for more
than the maximum order threshold. Contracting officials were unable to
determine the maximum order threshold for the one remaining order. For
14 of the 16 orders awarded for more than the maximum order threshold,
contracting officials responsible for the orders were unable to show that they
reviewed catalogs/pricelists or used the Advantage! online shopping service to
identify more than 3 FSS contractors. For the one order in which contracting
officials could not identify the maximum order threshold, contracting officials
were unable to provide documentation showing that they had, at a minimum,
reviewed pricelists/catalogs from three FSS contractors or used the GSA
Advantage! online shopping service.

An egregious example was order DASW01-00-F-4586, valued at $655,490, for
370 Docuprint N2125 LaserJet printers and related supplies. On this order, the


                                           8
contracting officer at Defense Supply Service-Washington (DSSW), now called
Defense Contracting Command-Washington, did not follow the FAR and GSA
Special Ordering Procedures, and also allowed the FSS contractor that was
eventually awarded the order to determine whether other FSS contractors existed
that could provide the product. There was no indication that the contracting
officer attempted to identify multiple sources of the printer using the methods
previously identified. Instead, DSSW contracting officials relied on a FSS
contractor that supplied the printer to another Defense agency to perform the
market research for them. The FSS contractor informed the contracting officer
of the following:
           I did some web surfing on this. I can’t find anybody else that has this
           Xerox printer on GSA. I went to the Xerox web site and checked all
           of their GSA holders. Most of them had very few Xerox products at
           all. I did check a lot of other places as well. I don’t know what else
           to do at this point.

We queried the GSA Advantage! online shopping service and identified six
contractors other than the contractor awarded the order. Four of the 6
contractors offered a lower unit price for a quantity of 1 than the $1,246 unit
price awarded under order DASW01-00-F-4586 for a quantity of 370. These
unit prices varied from $1,208 to $1,221. Had contracting officials complied
with FAR Part 8 and GSA Special Ordering Procedures to identify FSS
contractors that provided the printer, they could have obtained a better price
than the price received. Also, the contracting officials should have recognized
that requesting the FSS contractor that provided the printer to identify other
contractors that provided the same product was a conflict of interest and put the
contractor in the awkward position of having to identify other competitors. The
contracting officer who awarded the order was no longer employed by the
Defense Contracting Command-Washington.

FSS Orders for Services. Of the 73 FSS orders reviewed, 44 orders were for
services. The value of the 44 orders was $103.3 million. Of the 44 orders,
37 were for amounts higher than the maximum order threshold. For 29 of
37 orders valued higher than the maximum order threshold, contracting officials
could not show that they followed FAR Part 8 procedures or that they had
requested quotes from more than 3 contractors as required by the GSA Special
Ordering Procedures. Contracting officials were also unable to show that they
had obtained at least three quotes for three orders awarded below the maximum
order level and for four orders in which they were unable to identify the
maximum order level.

FSS Orders for Products and Services. Contracting officials also did not
follow FAR Part 8 and GSA Special Ordering Procedures when awarding
12 orders, valued at $112 million, which included a combination of products
and services. We identified problems with these orders similar to the problems
previously discussed.

For example, for order DCA200-00-F-5418, valued at $6.8 million for
software, software support, and engineering and technical services, Defense
Information Technology Contracting Office officials were unable to demonstrate

                                         9
that they had performed a thorough review of the contractor’s proposed cost for
the product portion of the order or proposed labor hours, labor rates, and labor
mixes for the services portion of the order, or that they had requested discounts.

In our opinion, contracting officials did not adequately support the overall price
reasonableness determination for 9 of the 12 orders, which is a fundamental
responsibility of a contracting officer when awarding a priced contract action.

No Request for Discounts. Contracting officials did not use a common
commercial practice associated with their huge buying power to obtain better
pricing. Sixty-four of the 73 FSS orders reviewed were valued for more than
the maximum order threshold in which contracting officials should have
requested discounts. However, contracting officials requested and obtained
discounts for only 19 of the 64 orders. Even though contracting officials
obtained discounts for 19 orders, they were unable to explain the basis for
determining that the discounts were fair or describe the basis for the overall
discount. Usually, the contracting officials simply stated that discounts were
good because they were a certain percentage lower than the GSA Schedule
prices. They believed that because they got a discount (any amount) that the
price was fair and reasonable.

For example, Army Communications-Electronics Command-Washington
contracting officials were unable to show how they determined that the discounts
obtained were deemed fair, or why discounts remained the same when the actual
value of order No. 2 on FSS BPA DAAB07-98-A-6000 increased from
$6.8 million to $15.8 million or 3,060 percent higher than the maximum order
threshold. The order was for system engineering and technical assistance.
Contracting officials stated that the discounts were based on the $6.8 million
order award amount, which was 1,270 percent higher than the $0.5 million
maximum order threshold.

During an interview, the Naval Fleet Industrial Supply Center, Norfolk
Detachment, Washington D.C., contract specialist assigned to order
N00600-00-F-2095 stated that he had no idea how discounts of $1.3 million
based on $18 million of funded requirements were determined or whether they
were adequate. The estimated value of this order−for project management,
information technology consulting, and hardware/software−was $50 million,
which would be incrementally funded over 5 years.

FAR Part 8 and GSA Special Ordering Procedures only require contracting
officials to seek discounts for orders exceeding the maximum order threshold.
In our opinion, this does not go far enough to ensure that DoD receives fair
discounts in proportion to the amount of products and services being acquired.
The Under Secretary of Defense for Acquisition, Technology, and Logistics
should issue guidance instructing DoD contracting activities to not only seek
discounts for orders exceeding the maximum order threshold but also explain
why discounts were not received or explain how discounts received were
determined to be reasonable.

There should be a conscientious effort to obtain the best terms and prices
because DoD accounts for 55 percent of the dollar purchases from GSA FSS.


                                    10
Contracting officers should also document that they sought discounts on all
orders that exceed maximum order thresholds, explain how they determined that
discounts obtained were fair, or explain why discounts were not received.

Issued Orders on a Sole-Source Basis Instead of Seeking Multiple Sources.
For 31 orders, valued at $98.9 million, contracting officials developed
justifications using the guidance in FAR 6.302-1, “Only One Responsible
Source and No Other Supplies or Services Will Satisfy Agency Requirements,”
while claiming that the same orders were competed in accordance with FAR
Part 8. A contracting official stated that documentation supporting the use of
sole-source orders did not have to go through the approval process because these
orders were considered competed. Sole-source orders may be appropriate for
low dollar orders; however, sole-source orders should not be authorized for the
high dollar purchases exceeding maximum order thresholds. Table 3 provides a
breakdown of these sole-source orders by DoD Component.

Table 3. FSS Orders Issued on a Sole-Source Basis While Also Claiming
That Competition Occurred

               DoD Component              Orders Issued      Dollar Value
                                                              (Millions)


       Army                                    16                    $32.0

       Navy                                    7                      23.2

       Air Force                               3                       3.5

       Defense Logistics Agency                2                       4.3

       Defense Information Systems             3                      35.9
       Agency

       Total                                   31                    $98.9



Inadequate Review of Labor Hours, Labor Mixes, and Labor Rates. For
41 orders for services, valued at $96.3 million, and 8 orders for a combination
of products and services, valued at $56.1 million, contracting officials were
unable to demonstrate that they performed a thorough review of labor hours,
labor rates, and labor mixes as required by GSA Special Ordering Procedures.
Accordingly, the overall best value or price reasonableness determinations for
each of these FSS orders lacked support.




                                     11
    For example, when asked if a review of labor hours had been performed for
    FSS order DASW01-00-F-3926, valued at $1.4 million for data management
    support, the DSSW contracting officer stated that labor hours do not matter,
    only labor rates and that they mainly go with price, not hours. In our opinion,
    contracting officials should have supported an overall price reasonableness
    determination based on the results of an analysis of the labor rates, labor hours,
    and labor mixes.

Confusing Guidance
    Contracting officials were confused with the guidance related to the award of
    orders using FSS. For example, FAR Part 8 does not differentiate between
    products and services for evaluating best value. Although additional procedures
    for FSS orders for services and products are contained in GSA Special Ordering
    Procedures, these procedures are not even mentioned in FAR Part 8 although
    they take precedence over procedures in FAR Part 8.

    Inappropriate Use of Sole-Source Orders. Contracting officials were also
    confused about their authority to issue sole-source orders against FSS. The
    confusion about whether sole-source orders are authorized was evident in both
    orders for products and services. The primary cause for this confusion is that
    both FAR Part 8 and GSA Special Ordering Procedures are silent on whether
    sole-source orders are authorized for orders placed on FSS. A prior version of
    the GSA Multiple Award Schedules Program Owner’s Manual stated that
    sole-source orders were not authorized; however, this statement does not appear
    in the GSA current manual. As a result, contracting officials were unsure
    whether the sole-source orders were authorized. In our opinion, contracting
    officials included the sole-source justification in the contract files to document
    that only a single contractor was considered by the requiring organization.
    Also, the language of FAR Part 8 had allowed contracting officials to award
    FSS orders without making overall determinations of price reasonableness when
    awarding sole-source orders. If sole-source orders are allowed, contracting
    officials should restrict their use to low dollar orders.

    Maximum Order Threshold. FSS previously contained maximum order
    limitations, which put a ceiling (usually a dollar amount) on the use of the FSS
    contract. FSS no longer includes maximum order limits. Instead, the FSS
    contains a maximum order threshold that acts as a trigger point for customers to
    seek additional price reductions. This change allows FSS contractors to accept
    any order regardless of size. Contracting officials awarded 64 of the 73 FSS
    orders reviewed higher than the maximum order level. FAR 8.404(b)(3) and
    GSA Special Ordering Procedures require contracting officials to use prudence
    in determining pricing by seeking price reductions and considering additional
    FSS contractors prior to issuing orders that exceed the maximum order
    threshold.




                                        12
     Contracting officials confused maximum order limits with maximum order
     thresholds, and as a result, were not aware that they should be requesting
     discounts.

     For example, on order F41691-99-F-8111, valued at $5.1 million, issued by
     Randolph Air Force Base, we asked the contracting official whether a discount
     had been requested from the FSS contractor because its value exceeded the
     maximum order threshold. The contracting official stated that the maximum
     order thresholds had been eliminated and, accordingly, discounts were not
     requested. The contracting official confused maximum order limits with the
     maximum order thresholds and therefore was not aware that contracting officials
     should have requested a discount. The Military Departments and Defense
     agencies need to train contracting personnel in the use of FSS to eliminate the
     confusion.

Interpretation of Guidance
     Procedures for issuing FSS orders under FAR Part 8 are unclear, subject to
     interpretation, and do not include the GSA Special Ordering Procedures.
     Contracting officials believed that GSA had made competition and price
     reasonableness determinations when the contractors were included on the FSS.
     Accordingly, contracting officials believed they did not have to make best value
     or price reasonableness determinations when issuing FSS orders. As a result,
     contracting officials cited FAR Part 8 as their rationale why they had not
     performed additional price reasonableness analysis.

     Contracting officials interpreted FAR 8.404(a) to mean that they need not
     perform any steps related to competing or making best value or price
     reasonableness determinations prior to issuing orders using FSS. FAR 8.404(a)
     states that orders for products and services placed against multiple-award
     schedules are considered issued using full and open competition. It also states
     that ordering offices need not seek further competition, synopsize the
     requirement, make a separate determination of fair and reasonable pricing, or
     consider small business programs. FAR 8.404(a) also provides that GSA has
     already determined the prices of items under schedule contracts to be fair and
     reasonable and that by placing an order against a schedule using the procedures
     in this section, the ordering office has concluded that the order represents the
     best value and results in the lowest overall cost alternative, considering price,
     special features, and administrative costs to meet the Government’s needs.

     For example, the file for Defense Information Technology Contracting Office
     order DCA200-00-F-5261, valued at $1.5 million, for the purchase of Harris
     radio sets contained documentation stating:
                Since this order will be placed against a GSA schedule, in accordance
                with FAR 8.404(a), [we] need not seek further competition, synopsize
                the requirement or make a separate determination of fair and
                reasonable pricing.



                                            13
    The documentation also referenced FAR 8.404(b)(2) stating:
               FAR 8.404(b)(2) suggests that agencies may wish to [take] further
               steps to ensure that award of an order under GSA schedule over
               $2,500 represents the best value and meets the agency’s needs at the
               lowest overall cost when the information is reasonably available
               considering administrative costs.

    However, there was no mention of FAR 8.404(b)(3), which requires contracting
    officials to review additional schedule contractors’ catalogs or pricelists or use
    the GSA Advantage! online shopping service and generally seek price reductions
    from schedule contractors for orders exceeding the maximum order threshold.
    FAR 8.404(b)(3) was applicable because the order value exceeded the maximum
    order threshold.

    A DSSW contracting official incorrectly interpreted FAR Part 8 on FSS order
    DASW01-00-F-3918, valued at $1.2 million, for professional services and
    systems support for the management, implementation, and execution of Office
    of Small and Disadvantaged Business Utilization programs. She believed that
    the order did not have to be competed because it was awarded under the
    section 8(a) program and was less than the $3 million threshold requiring
    competition, in accordance with FAR 19.805-1(a)(2). The official was not
    aware that according to FAR 8.404(a), FAR Part 19, “Small Business
    Programs,” does not apply to orders placed against FSS.

    A Defense Logistics Agency contract specialist made an incorrect interpretation
    of FAR Part 8 when issuing order No. 35, valued at $3.2 million, under FSS
    BPA SP4700-98-A-0007. The contract specialist stated “On GSA” as the entire
    reason for soliciting only one source. During an interview, the contracting
    officer assigned to the contract could not provide any additional documentation
    describing why a sole-source order was necessary and could not determine
    whether discounts had been either requested or obtained. She stated that the
    price was reasonable because it was obtained from a GSA schedule.

Training
    Because the amount of DoD expenditures using GSA FSS continues to increase
    (see figure in the Background section), it is imperative that DoD properly train
    contracting officials in the use of these schedules. Training in the use of FSS
    could be obtained through a variety of methods.

    Centers of Excellence. Section 821 of the FY 2001 Defense Authorization Act
    provided that the Secretary of each Military Department shall establish at least
    one center of excellence in contracting for services. Each center of excellence
    should assist the acquisition, technology, and logistics community by identifying
    and disseminating best practices in contracting for services in the public and
    private sectors. Because DoD uses the FSS to procure services, it would seem
    logical to include training on the use of FSS as a responsibility for the centers of
    excellence. We believe these centers are ideal for providing training and
    assistance to contracting officials in the proper use of FSS.


                                           14
    GSA Training. A National Aeronautics and Space Administration (NASA)
    Inspector General audit report, IG-02-014, “NASA Acquisition of Services
    Using the Federal Supply Schedules,” dated March 27, 2002, stated that upon
    request, GSA had provided FSS training to NASA contracting personnel at one
    NASA center. The NASA report also stated that NASA should pursue this
    training for all agency contracting officers involved in the acquisition of
    services. Because DoD is the largest Federal user of the FSS, we believe DoD
    should also make arrangements with GSA to provide training to its contracting
    officers. As a result of this training, contracting officials would have a better
    understanding of their responsibilities when using FSS, including the request for
    discounts.

Conclusion
    The lack of clear guidance for issuing orders using FSS along with contracting
    officials not seeking competitive quotes and requesting discounts has
    significantly affected the ability of DoD to maximize its position as the largest
    user of FSS to obtain services and products at the best prices. Comparing
    quotes and requesting discounts from at least three FSS contractors would go a
    lot further to ensure best value than just comparing prices from contractor FSS
    schedules. It is imperative that contracting officials consider all FSS contractors
    especially when procuring services and receive quotes from at least three FSS
    contractors. Contracting officials must adequately support decisions and award
    sole-source orders through the appropriate approval process. It is also important
    that contracting officials document their basis for determining best value and
    price reasonableness.

    Purchasing from FSS at predetermined prices saves time. However, contracting
    officials need to identify as many FSS contractors as possible to ensure that the
    customer is getting the best value or fair and reasonable prices. Ease of use and
    significant reductions in acquisition time do not relieve contracting officials from
    obtaining competition or providing fair opportunities to compete for orders.
    Accordingly, contracting officials need to shop for fair prices and seek
    discounts. As the number of FSS continue to rapidly expand, the need for more
    attention to price reasonableness is critical.

Management Comments on the Finding and Audit Response
    Director, Defense Procurement Comments on the 1 Percent Fee. The
    Director questioned how the $60 million in fees was arrived at since the report
    stated that GSA had charged a 1 percent fee for $5.6 billion of purchases from
    GSA FSS in FY 2000.

    Audit Response. The $60 million in fees cited in the draft report was an
    estimate based on 1 percent of $6 billion in purchases under FSS contracts. We
    changed the report to $56 million in fees based on figures from the Federal
    Procurement Data System for FY 2000.


                                        15
    Director, Defense Procurement Comments on Orders Issued Above the
    Maximum Order Threshold. The Director requested that the section of the
    report related to FSS orders for services be clarified that 37 orders reviewed
    were above the maximum order threshold.

    Audit Response. We revised the report to clarify that the orders were above
    the maximum order level.

    Director, Defense Procurement Comments on the Conclusion. The Director
    pointed out that Section 803 pertains to only services and not products.

    Audit Response. We amended the conclusion section of the report to state that
    contracting officials consider all FSS contractors especially when procuring
    services.

Recommendations, Management Comments, and Audit
  Response
    A. We recommend that the Under Secretary of Defense for Acquisition,
    Technology, and Logistics:

           1. Issue guidance for orders on the Federal Supply Schedules:

                  a. Requiring contracting officers to consider the proposed
    prices for both the services and products when awarding orders for a
    combination of products and services.

    Management Comments. The Director, Defense Procurement concurred, and
    stated that she would send a memorandum to the contracting community
    addressing this issue within 90 days of the issuance of this final report.

                  b. Addressing the need to not only seek discounts for orders
    exceeding the maximum order threshold but also explain why discounts
    were not received or explain how discounts received were determined to be
    fair.

    Management Comments. The Director, Defense Procurement concurred,
    stating that the memorandum described in response to Recommendation A.1.a.
    would also address this recommendation.

                  c. Requiring contracting officers to fully document and
    support reasons for not considering all potential sources when awarding
    orders using Federal Supply Schedules.

    Management Comments. The Director, Defense Procurement partially
    concurred, stating that when using FSS for services exceeding $100,000,
    contracting officers will be required to provide fair notice of the intent to make
    purchases to as many FSS contractors as practical, to reasonably ensure that
    offers will be received from at least three contractors that can fulfill the work


                                        16
requirements. If less than three contractors can fulfill the work requirements,
the contracting officer will be required to document the efforts made to obtain
three offers and the efforts to ensure all offers received were fairly considered.
The Director stated that Section 803 would be implemented in the Defense
Federal Acquisition Regulations and that the Director was working with the
Defense Acquisition University to revise training to emphasize the need to
completely document the file.

Audit Response. The Director, Defense Procurement comments meet the intent
of our recommendation.

              d. Requiring contracting officers to consider labor hours,
labor rates, and labor mixes when awarding orders for services.

Management Comments. The Director, Defense Procurement partially
concurred, agreeing that contracting officers will be required to consider labor
hours, labor rates, and labor mixes when awarding orders for services except
when FSS contain firm-fixed prices for a particular service. The Director also
stated that this issue is being addressed in the memorandum cited in her response
to Recommendation A.1.a.

Audit Response. The Director, Defense Procurement comments were partially
responsive. The comments meet the intent of our recommendation as long as
the firm-fixed prices for particular services represent a total firm-fixed price that
includes labor hours, labor rates, and labor mixes, not just firm-fixed price
labor rates, and as long as the memorandum cited in the response to
Recommendation A.1.a. clarifies this issue. In response to the final report, we
ask that the Director provide additional comments clarifying that firm-fixed
prices for particular services represent a total firm-fixed price and not just firm-
fixed price labor rates.

       2. Task the Defense Acquisition Regulations Council to coordinate
with the Office of Federal Procurement Policy and the General Services
Administration regarding a change to the Federal Acquisition Regulation
that will:

              a. Clarify guidance related to orders for products and
services placed on Federal Supply Schedules.

Management Comments. The Director, Defense Procurement partially
concurred, stating that FAR Case 99-603, Federal Supply Schedule Services and
Blanket Purchase Agreements, addressed the clarification of guidance related to
orders placed on Federal Supply Schedules. The Director stated that the FAR
case was contentious and had been going on since 1999. The Director stated
that implementation of this recommendation would depend on the outcome of
this case.

Audit Response. The Director, Defense Procurement comments were not
responsive. Resolution of the FAR case is uncertain. We believe that the
Director needs to take immediate steps to clarify the guidance related to orders
for products and services placed on Federal Supply Schedules. If guidance is
                                     17
not clarified, problems identified in this report as well as in GAO Report
No. GAO-01-25 will continue and prices obtained from FSS will be
questionable. In response to the final report, we ask that the Director, Defense
Procurement provide additional comments on interim steps to clarify guidance
until the FAR case is resolved.

             b. Include the General Services Administration special
ordering procedures in the Federal Acquisition Regulation.

Management Comments. The Director, Defense Procurement partially
concurred, stating FAR Case 99-603 addresses the special ordering procedures
and implementation of the recommendation will depend on resolution of the
case.

Audit Response. The Director, Defense Procurement comments were not
responsive. We agree with GAO that the General Services Administration
special ordering procedures need to be included in the Federal Acquisition
Regulation. In response to the final report, we ask that the Director, Defense
Procurement provide additional comments on making DoD contracting officers
aware of the General Services Administration special ordering procedures until
the FAR case is resolved.

       3. Request the General Services Administration to revise its special
ordering procedures to clearly state whether sole-source orders are
authorized under Federal Supply Schedules. If authorized, issue
instructions stating that sole-source orders are only authorized up to the
maximum order threshold.

Management Comments. The Director, Defense Procurement concurred and
stated that the memorandum cited in her response to Recommendation A.1.a.
would reemphasize the guidance in this area.

       4. Request the General Services Administration to perform more
pre-award audits on Federal Supply Schedule contracts in which DoD is a
predominant customer to validate price reasonableness and ensure that
prices remain competitive.

Management Comments. The Director, Defense Procurement concurred and
stated that the memorandum cited in her response to Recommendation A.1.a.
would reemphasize the guidance in this area.

       5. Require the Military Departments to make training on the use of
Federal Supply Schedules available through their centers of excellence and
develop a mechanism for Defense agency personnel to obtain training on the
use of Federal Supply Schedules.

Management Comments. The Director, Defense Procurement concurred,
stating that Defense Procurement is working with the Defense Acquisition
University to update contracting courses to address these issues.




                                   18
       6. Coordinate with the General Services Administration to provide
training to DoD contracting officers on the use of Federal Supply Schedules.

Management Comments. The Director, Defense Procurement partially
concurred, stating that Section 803 covered this area and that she would defer
final comment on this to GSA since the comment is addressed for their action.

Audit Response. The Director, Defense Procurement comments were not
responsive. DoD, as the largest user of FSS, needs to ensure that its contracting
officials are properly trained in the use of FSS. The Director states in
Recommendation A.5. that Defense Procurement is working with the Defense
Acquisition University to update contracting courses. The purpose of
Recommendation A.6. is to include GSA into the process of identifying the type
of courses needed to train DoD contracting officials. In response to the final
report, we ask that the Director, Defense Procurement provide additional
comments as to how DoD and the General Services Administration will
coordinate training for DoD contracting officers on the use of Federal Supply
Schedules.




                                   19
                 B. Adequacy of Market Research
                    Efforts for Contract Actions
                    Awarded to Small Businesses
                 Contracting officials awarded 23 of 51 (45 percent)∗ contract actions
                 reviewed to small businesses on a noncompetitive basis without
                 performing adequate market research. This occurred because
                 contracting officials did not aggressively use available market
                 research techniques to identify additional sources. Additionally,
                 contracting officials awarding 7 of the 51 contract actions did not
                 comply with the requirements of the Truth in Negotiations Act. As
                 a result, other eligible small business contractors may have been
                 excluded from consideration during these awards, and DoD did not
                 obtain the best prices. Price competition has been found to reduce
                 costs by about 25 percent over sole-source awards. If competition
                 and similar price reductions had occurred on these 23 contract
                 actions, valued at $164.2 million, costs could have been reduced by
                 $41.1 million.

Criteria
        FAR 2.101, “Definitions.” FAR 2.101 defines market research as
        “collecting and analyzing information about capabilities within the market
        to satisfy agency needs.” Market research is performed in order to identify
        the most suitable approach to acquiring a product or service and to ensure
        that all potential sources are identified.

        FAR Part 10, “Market Research.” FAR Part 10 states research must be
        conducted before:

               • developing new requirements,

              • soliciting offers for acquisitions with an estimated value in excess of
                the simplified acquisition threshold,

              • soliciting offers for acquisitions less than the simplified acquisition
                threshold when adequate information is not available and
                circumstances justify its cost, and

               • soliciting offers for acquisitions that could lead to a bundled
                 contract.

        FAR 15.403-4, “Requiring Cost or Pricing Data.” FAR 15.403-4(a)(1)
        states that the threshold for obtaining cost or pricing data is $550,000.
        FAR 15.403-1(b), “Exceptions To Cost or Pricing Data Requirements,”
        provides exceptions from obtaining cost or pricing data.
∗
 Judgment sample percentage does not generalize to universe.



                                               20
      The exceptions are when:

            • the price is based on adequate price competition,

            • prices are set by law or regulation,

            • a commercial item is being acquired,

            • a waiver has been granted, and

            • contracts or subcontracts for commercial items have been modified.

Non-FSS Contract Actions Reviewed
     We reviewed 51 non-FSS contract actions, valued at $637.1 million, which
     were awarded to small businesses on a noncompetitive basis. See
     Appendix D for a list of orders reviewed. The following table provides a
     breakdown of non-FSS orders reviewed by DoD Component.

       Table 4. Non-Federal Supply Schedules Contract Actions Reviewed

                 DoD Component                 Offices      Non-FSS           Value
                                               Visited   Contract Actions   (millions)
                                                            Reviewed

     Army                                        3             12               $231.3

     Navy                                        5             26                 364.2

     Air Force                                   2              9                  36.4

     Defense Logistics Agency                    1              2                   1.6

     Defense Information Systems Agency          1              2                   3.7

      Total                                      12            51               $637.2




Issues Identified
     Market Research. Contracting officials can use a variety of market
     research techniques to identify potential sources for requirements, such as
     contacting Small Business Administration (SBA) officials, reviewing recent
     market research of similar requirements, publishing formal requests for
     information, querying Government databases, querying Internet information

                                          21
sources, obtaining source lists, reviewing catalogs, and holding pre-
solicitation conferences. For all market research efforts, contracting
officials should document the results in an appropriate manner.

Contracting officials did not perform adequate market research for 23 of the
51 non-FSS high dollar contract actions awarded to small businesses. There
was no evidence of any market research efforts for 10 of the 23 contract
actions and limited market research for 13 contract actions. While
contracting officials may have complied with other statutory or regulatory
provisions regarding competition, we believe market research was
inadequate. When market research was performed, it usually consisted only
of an announcement in the Commerce Business Daily. The following
examples describe the lack of market research efforts for the contract
actions. See Appendix D for a list of these contract actions.

Contracting officials at Hill Air Force Base stated that adequate market
research was performed for contract F04606-97-C-0142, valued at
$13,820,791, issued on a sole-source basis to the incumbent contractor.
The justification and approval document for the sole-source procurement
stated that market research consisted solely of contacting the user
community, and no other sources were identified. Contracting officials also
requested a waiver from the SBA to award the contract on a sole-source
basis. The SBA denied the request for a waiver, stating it had identified
480 firms that may be able to perform the proposed requirement. The SBA
stated that it found it difficult to believe that at least two of these potential
sources would not submit a proposal. Contracting officials chose not to
consider the market research information provided by the SBA and awarded
the contract on a sole-source basis to the incumbent contractor.

Contracting officials at Hill Air Force Base also claimed that competition
occurred when awarding contract F42650-00-C-0127 after receiving one
offer. Market research efforts for this contract consisted of posting the
solicitation on the Internet and undocumented conversations the architect
and engineering firm had with other capable contractors. We queried Pro-
Net, an SBA Internet database, and identified over 2,500 firms that
performed commercial and institutional building construction under the
same North American Industry Classification System (NAICS) code
identified in this contract. Had contracting officials done this, they would
have identified additional sources for this requirement that could have
resulted in receipt of multiple offers.

Contracting officials at the Naval Air Systems Command determined that
adequate competition existed under contract N00421-00-D-0263, valued at
$8,030,027, for management support services after receiving one offer.
This was a follow-on contract awarded to the incumbent contractor, who
was awarded the prior contract on a sole-source basis. Because there was
no evidence of adequate competition on the prior contract, market research
should not have been limited to only an announcement in the Commerce
Business Daily and the Naval Air Systems Command Web site.


                                   22
Additional market research should have been performed using other
techniques. According to Pro-Net, more than 1,600 firms perform work
under the same NAICS code.

Contracting officials at the Space and Naval Warfare Systems Command
relied on market research that was 2 years old to purchase communications
equipment on contract N66001-00-D-5031, estimated at $9.6 million. In an
ever-changing marketplace, especially in the communications arena, market
research that is 2 years old may not have accurately reflected the market at
time of award.

Noncompetitive Awards Reviewed. Of 51 non-FSS contract actions,
44−valued at $416.1 million−were awarded on a sole-source basis and 7 of
the contract actions, valued at $221 million, were awarded on a competitive
basis when only 1 offer was received.

Sole-Source Awards. Documentation in the files did not adequately
support the use of sole-source contract actions. Also, contracting officials
were unable to demonstrate that adequate market research was performed
when awarding sole-source contract actions. Justification and approval
documents cited “only one responsible source” to justify the use of a
sole-source contract, but lacked sufficient detail to support this exception.
We questioned contracting officials’ use of sole-source contract actions for
17 of 44 sole-source contract actions reviewed, valued at $131.6 million.
For 13 of the 17 contract actions, small businesses competed with large
businesses, 1 was awarded as a small business set-aside, and 3 of the
17 were section 8(a) set-asides. Each of the three contract actions were
awarded higher than the competition threshold; $5 million for acquisitions
assigned NAICS codes and $3 million for all other acquisitions. However,
they were not competed among section 8(a) contractors as required by
FAR 19.805-1, “General.” For 15 of the 17 contract actions, we also
questioned the adequacy of market research performed. Had contracting
officials performed adequate market research, they would have been able to
better support a sole-source award or make competitive awards.

Competitive Awards After Only One Proposal Received. Contracting
officials did not appear to take adequate steps to obtain competition for six
of the seven contract actions reviewed, valued at $219.6 million, because
the only proposals received were from incumbent contractors. There was
no evidence of either a realistic expectation for competition or that
contractors other than the incumbent contractor would submit a proposal.
The contracting officials’ position is contrary to the FAR. FAR 15.403-
1(c)(1)(ii) indicates that competition should be based on at least two
contractors by stating that cost or pricing data are not required if:
           There was a reasonable expectation, based on market research or
           other assessment, that two or more responsible offers, competing
           independently, would submit priced offers in response to the
           solicitation’s expressed requirement, even though only one offer
           is received from a responsible offeror….


                                     23
    Contracting officials claimed that a competitive environment existed when
    only one offer was received after other contractors stated that they would
    not submit proposals because they had no chance of winning the award. No
    additional research was performed to locate other sources or to give
    intended parties assurance that they would be fairly considered.

    For example, contracting officials at the Army Aviation and Missile
    Command claimed that competition occurred when awarding contract
    DAAH01-97-C-0324 for services in support of the Patriot Project Office
    after receiving one offer. However, other contractors stated that they did
    not submit a proposal due to the incumbent’s extensive years of experience
    and that chances of winning the award were extremely low. One contractor
    commented:
               it would be extremely difficult if not impossible to overcome the
               incumbent contractors apparent “solid” position with the
               technical customer.

    In our opinion, contracting officials need to fully support decisions and
    supporting statements on sole-source determinations and provide evidence
    that a reasonable expectation for competition exists prior to issuing the
    solicitation. If there is no reasonable expectation that the Government will
    receive two offers, then cost and pricing data should be required pursuant to
    FAR Part 15. When initial efforts indicate no likelihood of competition,
    contracting officials should document that they aggressively pursued other
    techniques and strategies.

    Truth in Negotiations Act. Contracting officers did not comply with Truth
    in Negotiations Act procedures under FAR 15.403-1(b) and
    FAR 15.403-4(a)(1) for 7 of the 51 contract actions reviewed, valued at
    $97.8 million, and as a result did not make adequate price reasonableness
    determinations for the 7 actions (1-Army and 6-Navy). See Appendix D for
    a list of these contract actions. Contracting officials were unable to explain
    why certified cost or pricing data were not obtained, or provide evidence
    that the adequate competition exception to obtaining cost or pricing data was
    valid. As a result, contracting officials did not protect the interests of the
    Government for contract actions involving defective pricing.

Management Actions
    As a result of IG DoD Report No. D-2001-129, “Contracting Officer
    Determinations of Price Reasonableness When Cost or Pricing Data Were
    Not Obtained,” May 30, 2001, the Director of Defense Procurement issued
    a memorandum dated March 21, 2002, emphasizing the importance of price
    reasonableness determinations. The memorandum discusses the need to
    obtain information on prior prices for similar products, perform a thorough
    price analysis, and provide adequate documentation to explain the
    contracting officer’s price reasonableness determination. The memorandum
    detailed a plan to monitor 20 major contracting activities in the Military
    Departments and Defense agencies that are pricing a substantial amount of
                                         24
actions without the use of certified cost or pricing data. Nine contracting
activities visited during this audit are not included in the 20 major activities
identified in the memorandum. In our opinion, the Director of Defense
Procurement should also identify these nine activities for monitoring.
Table 5 includes a list of these contracting activities.

Table 5. Additional Contracting Activities for Monitoring

        DoD Component                        Contracting Activity

 Army

                             U.S. Army Tank-Automotive and Armaments
                             Command, Rock Island, Illinois

                             Garrison, Fort Huachuca, Arizona

 Navy

                             Fleet and Industrial Supply Center, Norfolk
                             Detachment, Washington D.C.

                             Fleet and Industrial Supply Center, San Diego,
                             California

                             Space and Naval Warfare Systems Center,
                             Charleston, South Carolina

                             Space and Naval Warfare Systems Center, San Diego,
                             California

 Air Force

                             Ogden-Air Logistics Command, Hill Air Force Base,
                             Ogden, Utah

                             12th Contracting Squadron, Randolph Air Force Base,
                             Texas

 Defense Logistics Agency

                             Defense Logistics Agency Support Services, Fort
                             Belvoir, Virginia




                                   25
Conclusion
    The underlying goal of market research is to identify as many potential
    sources as possible. By not taking a more aggressive approach towards
    market research, additional eligible small business contractors are excluded
    from consideration, and DoD loses the benefits of competition. Price
    competition has been found to reduce costs by about 25 percent over
    sole-source procurements. If competition and similar price reductions had
    occurred on these 23 actions, valued at $164.2 million, costs could have
    been reduced by $41.1 million.

Recommendations
    B. We recommend that the Under Secretary of Defense for
    Acquisition, Technology, and Logistics:

           1. Issue instructions requiring that the Military Departments
    and Defense agencies re-emphasize the importance of market research
    and train contracting personnel in the use of market research
    techniques and require contracting officers to fully document in the
    contract file market research efforts performed.

    Management Comments. The Director, Defense Procurement concurred,
    stating that Defense Procurement was working with the Defense Acquisition
    University to update contracting courses to address these issues. The
    Director, Defense Procurement also stated that these issues would be
    reemphasized in the memorandum cited in her response to
    Recommendation A.1.a.

           2. Develop a trend analysis of the progress made in obtaining
    competition and multiple sources through the market research process.
    Such an analysis should be available for review within 18 months from
    the date of this report.

    Management Comments. The Director, Defense Procurement
    nonconcurred, stating that market research contributes to increased
    competition; however, there is no database that includes a metric that could
    be used for measuring the increase in competition solely attributable to
    market research. The Director, Defense Procurement also stated that the
    cost to establish such a metric would outweigh any potential benefit.

    Audit Response. The Director, Defense Procurement comments are
    partially responsive. We did not intend that new databases or metrics be
    developed. The intent of our recommendation was for DoD to determine
    whether DoD is increasing its use of market research when awarding
    contracts. We envisioned data calls to the Military Department and Defense
    agency procurement executives for selected information and an analysis as
    to whether increased use is being made of market research. We believe that

                                     26
competition advocates at contracting activities should be emphasizing use of
market research in outreach training to requiring offices to promote
competition and can report on progress in obtaining competition and
multiple sources through the market research process. In response to the
final report, we ask that the Director, Defense Procurement provide
additional comments.

       3. Direct the Director of Defense Procurement to monitor the
9 contracting activities visited during this audit in addition to the
20 contracting activities identified in the Director, Defense Procurement
memorandum of March 20, 2002.

Management Comments. The Director, Defense Procurement concurred,
stating that this issue will be addressed in the memorandum cited in her
response to Recommendation A.1.a.




                                 27
Appendix A. Scope and Methodology
    We judgmentally sampled 124 actions awarded by 16 contracting offices
    during FYs 2000 and 2001. We used the DD350 database to select actions
    valued greater than $0.5 million, and collectively totaled $891.5 million.
    Seventy-three of these actions, valued at $254.4 million, were awarded to
    small businesses using GSA FSS. Fifty-one actions, valued at
    $637.1 million, were non-FSS contract actions awarded to small businesses.

    We examined delivery orders, statements of work, negotiation
    memorandums, price analyses, and miscellaneous correspondence. We
    interviewed contracting personnel and officials from GAO and GSA. We
    also reviewed FAR and GSA rules and procedures pertinent to the award of
    orders issued using FSS. We performed this audit from June 2001 through
    May 2002 in accordance with generally accepted government auditing
    standards.

    Use of Computer-Processed Data. We did not evaluate the general and
    application controls relating to the DD350 database system that processes
    the contract action reports, although we relied on data produced by that
    system during the audit. We did not evaluate the controls because the
    information was used only to obtain the universe data and actions selected
    for review and to perform a trend analysis on GSA schedule orders awarded
    by DoD contracting organizations. After we selected the actions for
    review, we verified data on each action by reviewing the contract files at
    the contracting organizations. Accordingly, we only used the DD350 data
    as a starting point and not evaluating the controls did not affect the results
    of the audit.

    General Accounting Office High-Risk Area. The General Accounting
    Office has identified several high-risk areas in the DoD. This report
    provides coverage of the Defense Contract Management high-risk area.

Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,”
    August 26, 1996, and DoD Instruction 5010.40, “Management Control
    (MC) Program Procedures,” August 28, 1996, require DoD organizations
    to implement a comprehensive system of management controls that provides
    reasonable assurance that programs are operating as intended and to
    evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We
    reviewed management control procedures related to orders awarded to small
    businesses using FSS. Specifically, we were concerned about whether
    contracting officials followed established procedures when awarding orders
    to small businesses using GSA FSS. We were also concerned about
    whether contracting officials used adequate market research techniques

                                      28
when awarding contract actions to small businesses on a sole-source basis
and on a competitive basis when only one proposal was received.

Adequacy of Management Controls. We identified a material
management control weakness as defined by DoD Instruction 5010.40.
Army, Navy, Air Force, Defense Logistics Agency, and Defense
Information Systems Agency management controls were lacking to ensure
that contracting officials adequately competed and made overall price
reasonableness determinations on orders awarded to small businesses using
GSA FSS and for contract actions awarded to small businesses in general.
Recommendations A. and B. will help correct the management control
weakness. A copy of the report will be provided to the senior officials
responsible for management controls within the Office of the Under
Secretary of Defense for Acquisition, Technology, and Logistics; the
Defense Information Systems Agency; and the Defense Logistics Agency.

Adequacy of Management’s Self-Evaluation. DoD contracting
organizations did not specifically identify orders awarded to small
businesses using GSA FSS or contract actions awarded to small businesses,
in general, as assessable units and, therefore, did not identify or report the
material management control weakness identified by the audit.




                                  29
Appendix B. Prior Coverage

General Accounting Office
    GAO Report No. GAO-01-125, “Contract Management: Not Following
    Procedures Undermines Best Pricing Under GSA’s Schedules,”
    November 28, 2000

Inspector General of the Department of Defense (IG DoD)
    IG DoD Report No. D-2001-189, “Multiple Award Contracts for
    Services,” September 30, 2001

    IG DoD Report No. D-2001-129, “Contracting Officer Determinations of
    Price Reasonableness When Cost or Pricing Data Were Not Obtained,”
    May 30, 2001

    IG DoD Report No. D-2001-102, “Service Contracts at the National
    Security Agency,” April 17, 2001 (Confidential)

    IG DoD Report No. D-2000-100, “Contracts for Professional,
    Administrative, and Management Support Services,” March 10, 2000

    IG DoD Report No. 99-116, “DoD Use of Multiple Award Task Order
    Contracts,” April 2, 1999

Other
    IG NASA Report No. IG-02-014, “NASA Acquisition of Services Using
    the Federal Supply Schedules,” March 27, 2002

    IG GSA Special Report, “MAS Pricing Practices: Is FSS Observing
    Regulatory Provisions Regarding Pricing?,” August 24, 2001




                                   30
                 Order Number                  Product/         Estimated Value   Maximum        Amount Above      Percent Above    Proof of
                                                Service                            Order          Maximum            Maximum        Discount
                                                                                  Threshold         Order         Order Threshold
                                                                                                  Threshold

     Army

     1) DAAB32-00-F-0010                    Service                 $926,818.00   $500,000.00      $426,818.00               85.4      No

     2) DAAB32-01-F-0249                    Service                1,063,330.74     Could Not        Could Not          Could Not      No
                                                                                    Determine        Determine          Determine




31
     3) DAAB32-01-F-0227                    Service                1,003,270.24     Could Not        Could Not          Could Not      No
      (This Order Was Cancelled)                                                    Determine        Determine          Determine

     4) DAAB15-00-A-0007/0001∗              Service                2,063,245.00    500,000.00      1,563,245.00             312.6      Yes

     5) DAAB07-98-A-6000/0002*              Service               15,803,427.79    500,000.00     15,303,427.79            3060.7      Yes

     6) DAAB15-99-A-1002*                   Both                   8,856,803.00    500,000.00      8,356,803.00           1,671.4      Yes

     7) DABT63-00-A-1023/0004*              Service                1,137,418.00    500,000.00       637,418.00              127.5      No

     8) DAAE20-00-F-0044                    Product                3,730,340.00   1,000,000.00     2,730,340.00             273.0      No

     9) DASW01-00-F-5121                    Service                  565,000.00    500,000.00        65,000.00               13.0      No

     10) DASW01-00-F-8895                   Product                  586,862.60    500,000.00        86,862.60               17.4      No


     ∗
         Orders issued from a FSS blanket purchase agreement.
                                                                                                                                               Appendix C. Federal Supply Schedule Orders
            Order Number       Product/   Estimated Value   Maximum        Amount Above      Percent Above    Proof of
                                Service                      Order          Maximum            Maximum        Discount
                                                            Threshold         Order         Order Threshold
                                                                            Threshold

     11) DASW01-00-F-4056   Service          1,214,918.00    500,000.00       714,918.00              143.0      No

     12) DASW01-00-F-3926   Service          1,413,023.00    500,000.00       913,023.00              182.6      No

     13) DASW01-00-F-4556   Service            725,947.69    500,000.00       225,947.69               45.2      No

     14) DASW01-99-F-0689   Service          1,568,119.70   1,000,000.00      568,119.70               56.8      No

     15) DASW01-00-F-4793   Service          4,876,335.00    500,000.00      4,376,335.00             875.3      Yes




32
     16) DASW01-00-F-3724   Service          4,111,943.00    500,000.00      3,611,943.00             722.4      No

     17) DASW01-00-F-5050   Service            679,018.70    500,000.00       179,018.70               35.8      Yes

     18) DASW01-00-F-3112   Service          1,856,939.20    500,000.00      1,356,939.20             271.4      No

     19) DASW01-00-F-5457   Service          2,089,860.56   1,000,000.00     1,089,860.56             109.0      No

     20) DASW01-00-F-5451   Service            746,751.78    500,000.00       246,751.78               49.4      No

     21) DASW01-00-F-4974   Service            749,623.13    500,000.00       249,623.13               49.9      No

     22) DASW01-00-F-5242   Service            834,888.26    500,000.00       334,888.26               67.0      No

     23) DASW01-00-F-4677   Service            600,000.00   1,000,000.00     (400,000.00)              (60)      No
            Order Number       Product/   Estimated Value   Maximum        Amount Above      Percent Above     Proof of
                                Service                      Order          Maximum            Maximum         Discount
                                                            Threshold         Order         Order Threshold
                                                                            Threshold

     24) DASW01-00-F-4424   Both               500,082.02    500,000.00            82.02               0.02       No

     25) DASW01-00-F-5294   Both               701,981.34   1,000,000.00     (298,018.66)             (70.2)      No

     26) DASW01-00-F-3968   Service            726,783.40     Could Not        Could Not          Could Not       No
                                                              Determine        Determine          Determine

     27) DASW01-00-F-4704   Both             1,272,833.90    500,000.00       772,833.90              154.6       Yes




33
     28) DASW01-00-F-4251   Service            835,760.20    500,000.00       335,760.20               67.2       No

     29) DASW01-00-F-5075   Service          2,492,228.60    500,000.00      1,992,228.60             398.4       No

     30) DASW01-00-F-4625   Service            699,921.41   1,000,000.00     (300,078.59)              (70)       No

     31) DASW01-00-F-3918   Service          1,968,723.18    500,000.00      1,468,723.18             293.7       No

     32) DASW01-00-F-4586   Product            655,490.00    500,000.00       155,490.00               31.1       No

     33) DASW01-00-F-4185   Service            952,537.88     Could Not        Could Not          Could Not       No
                                                              Determine        Determine          Determine

     34) DASW01-00-F-5076   Service            977,144.83    500,000.00       477,144.83               95.4       No
                Order Number                  Product/          Estimated Value   Maximum        Amount Above      Percent Above     Proof of
                                               Service                             Order          Maximum            Maximum         Discount
                                                                                  Threshold         Order         Order Threshold
                                                                                                  Threshold

     Navy

     35) N65236-00-F-0570                  Product                 1,029,970.00    500,000.00       529,970.00                106       No

     36) N65236-98-A-7914, DO J198*        Product                 3,030,101.00    500,000.00      2,530,101.00               506       Yes

     37) N65236-98-A-7914, DO J217∗        Product                 3,552,811.63    500,000.00      3,052,811.63             610.6       Yes




34
     38) N00421-00-F-0387                  Service                 1,933,144.76    500,000.00      1,433,144.76             286.6       No

     39) N00421-00-F-0860                  Service                   799,145.85   1,000,000.00     (200,854.15)             (79.9)      No

     40) N00421-99-F-5746                  Service                   533,702.02    500,000.00        33,702.02                6.7       No

     41) N00421-00-F-0819                  Product                 1,502,096.00     Could Not        Could Not          Could Not       No
                                                                                    Determine        Determine          Determine

     42) N00421-99-F-5664                  Service                 6,640,025.35   1,000,000.00     5,640,025.35             564.0       No

     43) N00600-00-F-2095                  Both                   18,000,967.73   1,000,000.00    17,000,967.73           1,700.1       Yes

     44) N00600-00-F-0125                  Service                 7,606,807.68    500,000.00      7,106,807.68           1,421.4       Yes


     ∗
         Orders issued from a FSS blanket purchase agreement.
             Order Number      Product/   Estimated Value   Maximum        Amount Above      Percent Above    Proof of
                                Service                      Order          Maximum            Maximum        Discount
                                                            Threshold         Order         Order Threshold
                                                                            Threshold

     45) N00600-00-F-1564   Both             9,694,138.78   1,000,000.00     8,694,138.78             869.4      No



     Air Force

     46) F42650-00-F-A531   Service          1,564,417.00    100,000.00      1,464,417.00           1,464.4      No




35
     47) F41691-99-F-8011   Product          2,185,546.00    500,000.00      1,685,546.00             337.1      No

     48) F41691-99-F-8111   Both             5,140,956.00    500,000.00      4,640,956.00             928.2      No

     49) F41691-99-F-8002   Service          8,500,540.00    500,000.00      8,000,540.00           1,600.1      No

     50) F41691-00-F-5329   Both             5,140,956.00    500,000.00      4,640,956.00             928.2      No

     51) F41691-00-F-5311   Both            32,226,299.00    500,000.00     31,726,299.00           6,345.3      No

     52) F41691-00-F-5072   Service          1,019,486.30    500,000.00       519,486.30              103.9      Yes

     53) F41691-00-F-5066   Product          2,762,029.00    500,000.00      2,262,029.00             452.4      No

     54) F41691-00-F-5031   Product          3,574,522.60    500,000.00      3,074,522.60             614.9      No

     55) F41691-00-F-5023   Product          1,956,379.00    500,000.00      1,456,379.00             291.3      No
             Order Number           Product/   Estimated Value   Maximum        Amount Above      Percent Above    Proof of
                                     Service                      Order          Maximum            Maximum        Discount
                                                                 Threshold         Order         Order Threshold
                                                                                 Threshold

     56) FA8770-00-F-0037        Service            863,273.46    500,000.00       363,273.46               72.7      Yes

     57) FA8770-00-F-8026        Product            884,352.00    500,000.00       384,352.00               76.9      Yes

     58) FA8770-00-F-8040        Service          3,385,038.77    500,000.00      2,885,038.77             577.0      Yes

     59) FA8770-99-F-8020/0003   Service          1,373,265.18    500,000.00       873,265.18              174.7      Yes




36
     60) FA8770-99-F-8018/0002   Service          2,954,075.84    500,000.00      2,454,075.84             490.8      Yes

     61) FA8770-00-F-8003        Service          3,215,503.00    500,000.00      2,715,503.00             543.1      Yes

     62) FA8770-00-F-0030        Service          1,023,774.62    500,000.00       523,774.62              104.8      Yes

     63) FA8770-99-F-8016/0004   Service          1,703,987.41    500,000.00      1,203,987.41             240.8      Yes



     Defense Agencies

     64) DCA200-99-F-5381        Both            22,545,553.52   1,000,000.00    21,545,553.52           2,154.6      No

     65) DCA200-00-F-5418        Both             6,860,000.00    500,000.00      6,380,000.00             1,276      No

     66) DCA200-00-F-5261        Product          1,457,392.69    500,000.00       957,392.69              191.5      No
                Order Number                  Product/          Estimated Value   Maximum       Amount Above      Percent Above    Proof of
                                               Service                             Order         Maximum            Maximum        Discount
                                                                                  Threshold        Order         Order Threshold
                                                                                                 Threshold

     67) DCA200-00-F-5072                  Service                 6,424,837.01    500,000.00     5,924,837.01           1,184.5      No

     68) DCA200-00-F-5293                  Product                 1,259,218.00    500,000.00      759,218.00              151.8      No

     69) SP4700-99-A-0021/0069∗            Both                    1,094,572.63    500,000.00      594,572.63              118.9      No

     70) SP4700-00-A-0004/0002*            Service                 1,156,054.45    500,000.00      656,054.45              131.2      No




37
     71) SP4700-98-A-0007/0035*            Product                 3,150,048.80    500,000.00     2,650,049.00             530.0      No

     72) SP4700-99-A-0021/0079*            Product                 1,690,808.00    500,000.00     1,190,808.00             238.2      No

     73) SP4700-99-A-0021/0116∗            Product                 5,997,912.00    500,000.00     5,497,912.00           1,099.6      No




     ∗
         Orders issued from a FSS blanket purchase agreement.
            Contract Number      Estimated Value    Inadequate    Questionable Use of     Questionable    Noncompliance
                                                      Market     Sole-Source Contracts    Competition     With Truth in
                                                     Research                            (One Proposal)    Negotiation
                                                                                                          Requirements


     Army

     1) DAAE20-99-C-0094            $6,000,000.00

     2) DAAE20-00-D-0020            18,129,300.00       X                                      X               X




38
     3) DAAE20-98-C-0089             2,525,050.00

     4) DAAH01-97-V-0324           177,691,331.00                                              X

     5) DAAH23-00-C-0313             4,860,000.00

     6) DAAH23-00-C-0311             1,045,674.00
                                                                                                                                      Contract Actions




     7) DAAH23-99-C-0064               702,464.50

     8) DAAH23-99-C-0189             4,032,486.40       X

     9) DAAH01-00-C-0106             4,768,080.96       X                 X

     10) DAAH01-99-C-0072            5,297,155.00       X                 X
                                                                                                                          Appendix D. Non-Federal Supply Schedule




     11) DAAH01-00-C-0091            5,800,000.00

     12) DABT63-00-A-1009/0004         413,968.80       X                 X
            Contract Number   Estimated Value    Inadequate    Questionable Use of     Questionable    Noncompliance
                                                   Market     Sole-Source Contracts    Competition     With Truth in
                                                  Research                            (One Proposal)    Negotiation
                                                                                                       Requirements


     Navy

     13) N65236-00-D-5071         5,000,000.00                         X                                    X

     14) N65236-99-D-5047         5,000,000.00

     15) N65236-99-C-5834         6,759,520.00       X                                                      X




39
     16) N65236-99-C-5830         5,626,767.00

     17) N65236-98-D-7813        31,978,803.00       X                 X                                    X

     18) N65236-99-D-7825         9,707,607.00       X                 X

     19) N66001-00-D-5031         9,647,920.00

     20) N66001-00-C-5077         2,464,645.00

     21) N66001-98-C-0021         9,382,282.00

     22) N66001-00-D-5022         9,956,014.00

     23) N66001-98-C-5025         8,645,556.00

     24) N66001-97-D-5018         6,101,705.00       X                 X
          Contract Number        Estimated Value    Inadequate    Questionable Use of     Questionable    Noncompliance
                                                      Market     Sole-Source Contracts    Competition     With Truth in
                                                     Research                            (One Proposal)    Negotiation
                                                                                                          Requirements


     25) N00244-98-D-0032           63,511,960.00

     26) N00244-96-D-5069           18,701,538.00                         X

     27) N00244-99-D-5080           60,638,585.00

     28) N00244-00-D-0099            4,533,600.00




40
     29) N00244-00-D-0103            2,340,703.00

     30) N00244-97-D-5170            9,921,354.00       X                                      X               X

     31) N00244-00-D-0086            2,500,000.00                                              X

     32) N00244-99-D-0051           17,940,822.00       X                 X                                    X

     33) N00244-97-D-0011            9,740,501.00       X                                      X

     34) N00244-99-D-0136           48,458,885.23

     35) N00421-00-D-0263/0001       1,596,409.40       X                                      X               X

     36) N00421-00-C-0503            7,050,000.00

     37) N00600-99-C-1127            2,219,281.28       X                 X

     38) N00600-00-C-1388            4,713,400.00       X                 X
          Contract Number   Estimated Value    Inadequate    Questionable Use of     Questionable    Noncompliance
                                                 Market     Sole-Source Contracts    Competition     With Truth in
                                                Research                            (One Proposal)    Negotiation
                                                                                                     Requirements




     Air Force

     39) F42650-00-C-0019       1,204,000.00

     40) F42650-00-C-0127       1,421,250.00       X

     41) F42630-97-C-0222       1,157,217.00       X                 X




41
     42) F04606-97-C-0142      13,820,791.00       X                 X

     43) F42630-00-C-0141       6,010,973.38

     44) F42610-96-D-0011       5,639,205.00       X                 X

     45) F42620-00-C-0005       1,048,301.00

     46) F42620-00-C-0132       1,398,771.00

     47) F41691-97-C-0007       4,723,980.00       X




     Defense Agencies
          Contract Number        Estimated Value    Inadequate    Questionable Use of     Questionable    Noncompliance
                                                      Market     Sole-Source Contracts    Competition     With Truth in
                                                     Research                            (One Proposal)    Negotiation
                                                                                                          Requirements


     48) DCA200-98-G-0005/0007       1,161,108.00

     49) DCA200-97-G-0002/0018       2,535,542.60       X                 X

     50) SP4700-99-A-0021/0076         715,362.80       X                 X

     51) SP4700-99-A-0027/0001         855,410.00       X                 X

               Totals:                                 23                 17                   6               7




42
     Contract Number        Estimated        Inadequate or   No Request for   Inappropriate Use   Inadequate Review of
                            Value            No Review of    Discounts        of Sole-Source      Labor Hours, Labor
                                             Contractor                       Orders Instead of   Mixes, Labor Rates
                                             Pricelists                       Seeking Multiple
                                                                              Sources

     Army

     1) DAAE20-00-F-0044        $3,730,340          X              X

     2) DASW01-00-F-8895           586,863          X              X

     3) DASW01-00-F-3918         1,968,723          X              X                  X                     X

     4) DASW01-00-F-4625           699,921          X                                                       X




43
     5) DASW01-00-F-5075         2,492,229          X              X                                        X

     6) DASW01-00-F-4586           655,490          X              X

     7) DASW01-00-F-5050           679,019          X                                                       X

     8) DASW01-00-F-3926         1,413,023          X              X                                        X

     9) DASW01-00-F-4556           725,948          X              X                                        X

     10) DASW01-99-F-0689        1,568,120          X              X                  X                     X
                                                                                                                                     Using Federal Supply Schedules




     11) DASW01-00-F-5457        2,089,861          X              X                  X                     X
                                                                                                                         Appendix E. Problems Related To Orders Issued
     Contract Number        Estimated        Inadequate or   No Request for   Inappropriate Use   Inadequate Review of
                            Value            No Review of    Discounts        of Sole-Source      Labor Hours, Labor
                                             Contractor                       Orders Instead of   Mixes, Labor Rates
                                             Pricelists                       Seeking Multiple
                                                                              Sources

     12) DASW01-00-F-4251          835,760          X              X                  X                     X

     13) DASW01-00-F-4793        4,876,335                                                                  X

     14) DASW01-00-F-5076          977,145          X              X                                        X

     15) DASW01-00-F-3724        4,111,943                         X                                        X

     16) DASW01-00-F-4185          952,538          X                                 X                     X




44
     17) DASW01-00-F-4704        1,272,834          X                                 X                     X

     18) DASW01-00-F-3112        1,856,939          X              X                                        X

     19) DASW01-00-F-4056        1,214,918          X              X                  X                     X

     20) DASW01-00-F-5451          746,752          X              X                                        X

     21) DASW01-00-F-4974          749,623          X              X                  X                     X

     22) DASW01-00-F-5242          834,888          X              X                  X                     X

     23) DASW01-00-F-4677          600,000          X                                                       X
     Contract Number             Estimated        Inadequate or   No Request for   Inappropriate Use   Inadequate Review of
                                 Value            No Review of    Discounts        of Sole-Source      Labor Hours, Labor
                                                  Contractor                       Orders Instead of   Mixes, Labor Rates
                                                  Pricelists                       Seeking Multiple
                                                                                   Sources

     24) DASW01-00-F-4424               500,082          X              X                  X                     X

     25) DASW01-00-F-5294               701,981          X                                 X                     X

     26) DASW01-00-F-3968               726,783          X                                                       X

     27) DASW01-00-F-5121               565,000          X              X                  X                     X

     28) DAAB07-98-A-6000/0002       15,803,428          X                                 X                     X




45
     29) DAAB15-99-A-1002/0004        8,856,803          X

     30) DAAB32-00-F-0010               926,818          X              X                  X                     X

     31) DAAB32-01-F-0227             1,003,270          X                                 X                     X

     32) DAAB32-01-F-0249             1,063,331          X                                 X                     X

     33) DABT63-00-A-1023 #004        1,137,418          X              X                                        X

     34) DAAB15-00-A-0007/0001        2,063,245                                                                  X
     Contract Number                 Estimated        Inadequate or   No Request for   Inappropriate Use   Inadequate Review of
                                     Value            No Review of    Discounts        of Sole-Source      Labor Hours, Labor
                                                      Contractor                       Orders Instead of   Mixes, Labor Rates
                                                      Pricelists                       Seeking Multiple
                                                                                       Sources

     Navy

     35) N65236-98-A-7914, DO J198        3,030,101          X                                 X

     36) N65236-98-A-7914, DO J217        3,552,812          X                                 X

     37) N65236-00-F-0570                 1,029,970          X              X                  X

     38) N00421-00-F-0819                 1,502,096          X




46
     39) N00421-00-F-0860                   799,146          X                                 X                     X

     40) N00421-99-F-5664                 6,640,025          X              X                  X                     X

     41) N00421-00-F-0387                 1,933,145          X              X

     42) N00421-99-F-5746                   533,702          X              X                  X                     X

     43) N00600-00-F-2095                18,000,968          X                                                       X

     44) N00600-00-F-0125                 7,606,808          X                                 X                     X

     45) N00600-F-1564                    9,694,139                         X
     Contract Number        Estimated        Inadequate or   No Request for   Inappropriate Use   Inadequate Review of
                            Value            No Review of    Discounts        of Sole-Source      Labor Hours, Labor
                                             Contractor                       Orders Instead of   Mixes, Labor Rates
                                             Pricelists                       Seeking Multiple
                                                                              Sources




     Air Force

     46) F42650-00-FA531         1,564,417          X              X                  X                     X

     47) F41691-00-F-5031        3,574,523                         X

     48) F41691-00-F-5066        2,762,029          X              X

     49) F41691-00-F-5329        5,140,956                         X




47
     50) F41691-00-F-5311       32,226,299          X              X

     51) F41691-00-F-5072        1,019,486          X                                                       X

     52) F41691-99-F-8111        5,140,956                         X                                        X

     53) F41691-99-F-8011        2,185,546          X              X

     54) F41691-99-F-8002        8,500,540          X              X                                        X

     55) F41691-00-F-5023        1,956,379          X              X
     Contract Number               Estimated        Inadequate or   No Request for   Inappropriate Use   Inadequate Review of
                                   Value            No Review of    Discounts        of Sole-Source      Labor Hours, Labor
                                                    Contractor                       Orders Instead of   Mixes, Labor Rates
                                                    Pricelists                       Seeking Multiple
                                                                                     Sources

     56) FA8770-00-F-8026                 884,352          X

     57) FA8770-00-F-0030               1,023,775          X                                 X                     X

     58) FA8770-00-F-0037                 863,273          X                                 X                     X

     59) FA8770-99-F-8018/P00002        2,954,076                                                                  X

     60) FA8770-00-F-8003               3,215,503                                                                  X




48
     61) FA8770-99-F-8020/P00003        1,373,265                                                                  X




     Defense Agencies

     62) DCA200-00-F-5418               6,880,000          X              X                  X                     X

     63) DCA200-00-F-5261               1,457,393          X              X

     64) DCA200-00-F-5293               1,259,218                         X

     65) DCA200-00-F-5072               6,424,837          X              X                  X                     X
     Contract Number             Estimated        Inadequate or   No Request for   Inappropriate Use   Inadequate Review of
                                 Value            No Review of    Discounts        of Sole-Source      Labor Hours, Labor
                                                  Contractor                       Orders Instead of   Mixes, Labor Rates
                                                  Pricelists                       Seeking Multiple
                                                                                   Sources

     66) DCA200-99-F-5381            22,545,554          X              X                  X                     X

     67) SP4700-99-A-0021/0116        5,997,912          X              X

     68) SP4700-99-A-0021/0069        1,094,573          X              X                                        X

     69) SP4700-99-A-0021/0079        1,690,808          X              X

     70) SP4700-98-A-0007/0035        3,150,049          X              X                  X




49
     71) SP4700-00-A-0004/0002        1,156,054          X              X                  X                     X

     Totals                                             60              45                 31                   49
Appendix F. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Defense Procurement
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director for Acquisition Initiatives

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Information Systems Agency
Director, Defense Logistics Agency

Non-Defense Federal Organizations
Inspector General, General Services Administration
Office of Management and Budget/Office of Federal Procurement Policy

Congressional Committees and Subcommittees, Chairman
  and Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
Senate Committee on Small Business and Entrepreneurship
House Committee on Appropriations
House Committee on Small Business
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
                                          50
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         51
Under Secretary of Defense for Acquisition,
Technology, and Logistics Comments




                       52
Final Report
 Reference




Additional
Information
Added. See
pages 43-47


Revised


Pages 7, 8,
and 9


Page 9,
Third
Paragraph,
Revised
Page 11



Page 12

Page 12,
Paragraph 2
and 3




               53
     Final Report
      Reference




     Page 13,
     Paragraph 3



     Revised




     Appendix D,
     Page 38,
     Revised




54
55
56
Team Members
The Contract Management Directorate, Office of the Assistant Inspector General
for Auditing of the Department of Defense prepared this report. Personnel of
the Office of the Inspector General of the Department of Defense who
contributed to the report are listed below.

Garold E. Stephenson
Terry L. McKinney
Bruce A. Burton
Steven I. Case
Billy J. McCain
Robert E. Bender
Shelly M. Newton
Chrispian M. Brake
David P. Goodykoontz
Elizabeth M. Baarlaer
Lisa Rose-Pressley
